NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




          MATERIAL LOSS REVIEW
                   OF
         CONSTITUTION CORPORATE
          FEDERAL CREDIT UNION


             Report #OIG-11-09
             September 1, 2011




              William A. DeSarno
               Inspector General


                 Released by:




              James W. Hagen
           Deputy Inspector General
Table of Contents


    Section                                                    Page



   ACRONYMS AND ABBREVIATIONS                                   ii


   EXECUTIVE SUMMARY                                            1


   INTRODUCTION AND BACKGROUND                                  4


   OBJECTIVES, SCOPE AND METHODOLOGY                            8


   RESULTS IN DETAIL                                            10


       A. Why NCUA Conserved Constitution Corporate Federal
                                                                10
          Credit Union


       B. NCUA Supervision of Constitution Corporate Federal
                                                                25
          Credit Union

     Appendix A

        Management Response                                     35




                                                                      i
Acronyms and Abbreviations

ALCO           Asset/Liability Committee
ABS            Asset-Backed Securities
CCFCU          Constitution Corporate Federal Credit Union
CLF            Central Liquidity Facility
CMO            Collateralized Mortgage Obligations
Constitution   Constitution Corporate Federal Credit Union
CRIS           Corporate Risk Information System
Crowe          Crowe Horwath LLP
DOR            Document of Resolution
FCU            Federal Credit Union
FICO           Fair Isaac Corporation
GAAP           Generally Accepted Accounting Principles
Guide          NCUA Corporate Examiner‟s Guide
LSC            League Services Corporation
LUA            Letter of Understanding and Agreement
MLR            Material Loss Review
NCUA           National Credit Union Administration
NCUSIF         National Credit Union Share Insurance Fund
NEV            Net Economic Value
NPCU           Natural Person Credit Union
NRSRO          Nationally Recognized Statistical Rating
OCCU           Office of Corporate Credit Unions
OCM            Office of Capital Markets
OEF            Other Examiner Findings
OIG            Office of Inspector General
OTTI           Other-than-temporary Impairment
TCCUSF         Temporary Corporate Credit Union Stabilization Fund
TCCUSGP        Temporary Corporate Credit Union Share Guarantee Program
U.S. Central   U.S. Central Federal Credit Union




                                                                          ii
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



Executive Summary

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
contracted with Crowe Horwath LLP (Crowe) to conduct a Material Loss Review
(MLR) of Constitution Corporate Federal Credit Union (Constitution), a federally
chartered corporate credit union. We reviewed Constitution to: (1) determine why
NCUA placed Constitution under federal conservatorship; (2) assess NCUA‟s
supervision of the corporate credit union, and (3) make appropriate
recommendations to prevent future losses. To achieve these objectives, we
analyzed NCUA examination and supervision reports and related correspondence;
interviewed management and staff from the NCUA Office of Corporate Credit
Unions (OCCU) and Office of Capital Markets (OCM); reviewed NCUA guides,
policies and procedures, and NCUA Call Reports (Corporate 5310 Reports).1

Our review determined Constitution‟s management and Board of Directors (Board)
contributed to the conservatorship of Constitution and resulting material loss to the
Temporary Corporate Credit Union Stabilization Fund (TCCUSF). Specifically,
management and the Board‟s inadequate oversight resulted in Constitution
purchasing significant holdings of private-label mortgage-backed securities, many
of which were later downgraded to below investment grade, which exposed the
credit union to excessive amounts of financial risk. Constitution‟s management and
the Board failed to identify and manage this risk exposure prior to the mortgage-
backed securities market dislocation that occurred in mid-20072. Specifically, in
regards to managing the investment portfolio, Constitution‟s management:

            Relied heavily on ratings assigned to the securities by Nationally
             Recognized Statistical Rating Organizations (NRSRO) when purchasing
             securities for the portfolio and when monitoring the amount of credit risk
             in the investment portfolio;

            Did not establish prudent sector concentration limits to reduce the credit
             risk exposure related to the underlying assets of the mortgage-backed
             securities;

            Did not properly identify and monitor credit risk exposure in the
             underlying mortgage loan collateral of the mortgage-backed securities
             held in the investment portfolio; and


1
  Section III of Crowe‟s report provides further details on the Objectives, Scope, and Methodologies utilized.
2
  The market dislocation refers to events, which began in 2007 and continued into 2009, when securities
collateralized by mortgages, typically considered sub-prime, began to lose value due to high borrower defaults
in the underlying mortgages and declines in value of the property securing those mortgages. Because of this
market dislocation, mortgage-backed securities, which were initially high rated, were downgraded to reflect the
greater risk in the underlying mortgages. The value of the securities declined due to the downgrades and
trading in these securities eventually halted in mid-2007. The problems in the subprime mortgage market were
largely blamed on loose lending practices, low interest rates, a housing bubble, and excessive risk taking by
lenders and investors.
                                                                                                              1
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



            Failed to recognize the substantial risk they were undertaking with
             significant investments in complex mortgage-backed securities, with a
             substantial portion of these securities backed by subprime assets.

Management allowed the investments in mortgage-backed products to represent a
significant concentration compared to net worth and they failed to impose
reasonable limits on these securities. Management and the Board also did not
adequately recognize the credit risk associated with the underlying collateral, much
of which was subprime loans, including home equity loans. Underlying collateral
weaknesses ultimately led to performance issues and credit rating downgrades
which severely depressed the market value of the major portion of Constitution‟s
investment portfolio. Once the investments deteriorated in value, Constitution
management had no course of action for divestiture of the securities other than to
sell the securities at extreme discounts.

Constitution suffered substantial losses due to other-than-temporary market value
impairment on their holdings of mortgage-backed securities in 2008, 2009, and
early 2010, which quickly eroded the credit union‟s net worth and net economic
value (NEV)3 and eventually led to conservatorship.

Constitution recorded Other Than Temporary Impairment (OTTI)4 charges of $122
million from 2008 through July 2010. These charges resulted in an undivided
earnings deficit. In accordance with Part 704.2 of NCUA‟s rules and Regulations,
Constitution had to deplete its member-contributed capital to offset the undivided
earnings deficit. As of July 31, 2010, undivided earnings had a deficit of $24 million
and the capital ratio5 declined to -1.88 percent. Net Economic Value (NEV) was
negative $162 million or negative 13.55 percent. Constitution posted a net loss of
$84 million in 2008 and $100 million in 2009 due to the OTTI charges and the write-
off of $34 million related to its capital investment in U.S. Central.

NCUA Supervision of Constitution

We determined NCUA failed to adequately assess or timely identify key risks
related to Constitution‟s investment portfolio related to the concentration of
mortgage-backed securities, until it was too late. We also determined the lack of
adequate and timely oversight of Constitution was partially attributable to corporate
examiners not having the appropriate regulatory support, such as more specific
investment concentration limits, to adequately address Constitution‟s concentration
risk and the exposure to credit, market, and liquidity risks.


3
  Net Economic Value measures the economic solvency of a corporate credit union. It is defined as “the fair
value of assets minus the fair value of liabilities” (12 C.F.R 704.2).
4
  OTTI is an accounting requirement under GAAP. The premise for OTTI is that certain price declines are not
temporary, but reflect fundamental losses in a security that are considered to impair the security‟s long-term
value.
5
  The capital ratio includes retained earnings and membership capital accounts.
                                                                                                                 2
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



Examiners commented on Constitution‟s concentration in mortgage-backed
securities, including sub-prime issues, prior to the market dislocation. NCUA
examination reports issued in 2006 and 2007 discussed investment portfolio
concentrations in mortgage-backed securities and Constitution‟s increased credit
risk exposure to lower rated securities, including sub-prime mortgage-backed
securities. Although investment concentrations and increased credit risk exposure
were discussed, no significant concerns were noted and no supervisory actions
recommended.

As a result of the August 2008 examination, examiners cited serious concerns
regarding Constitution‟s significant concentration in mortgage-backed securities and
issued several Documents of Resolution (DORs). These DORs, which were a
result of the effects of the significant market-dislocation, addressed concerns
related to credit concentration limits that did not adequately reflect market sector
risks from direct and indirect investments, inadequate capital planning, inadequate
liquidity planning, and inadequate policies and procedures addressing significant
deposit concentrations. At this time, a Letter of Understanding and Agreement
(LUA) was issued to Constitution which contained several provisions pertaining to
policies and strategies to address liquidity, credit concentrations, and capital
adequacy concerns.

We believe stronger and timelier supervisory action regarding Constitution‟s
concentration in mortgage-backed securities could have resulted in a reduced loss
to the TCCUSF. NCUA regulations did not provide corporates with specific limits
for concentrations of credit risk. We believe NCUA examiners should have
recognized the risk exposure that Constitution‟s significant concentration in
mortgage-backed securities represented earlier than August 2008. Similar to
Constitution‟s management, NCUA also placed significant reliance on the high
ratings assigned by the NRSRO on the purchased mortgage-backed securities, and
failed to recognize Constitution‟s exposure to significant concentration risk due to
the lack of diversification in their investments.




                                                                                    3
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



Introduction and Background

The National Credit Union Administration (NCUA) Office of the Inspector General
(OIG) contracted with Crowe Horwath, LLP (Crowe) to conduct a Material Loss
Review (MLR) for Constitution Corporate Federal Credit Union (Constitution) as
required by Section 216 of the Federal Credit Union Act (FCU Act), 12 U. S. C.
1790d(j).

History of Constitution Corporate Federal Credit Union

In October 1967, Constitution received a charter from the state of Connecticut to
organize as a credit union under Connecticut General Statutes. Initially the credit
union was known as First Connecticut Credit Union from 1967 to 1979 and
essentially operated as a natural person credit union (NPCU); i.e., making
consumer loans and taking passbook deposits. In October 1979, First Connecticut
changed its name to Constitution State Corporate Credit Union, Inc., and
transferred the retail consumer business to another credit union.

Prior to 1986, Constitution operated under the management of League Services
Corporation (LSC), a management company contracted to provide payroll and
management services. In January 1986, Constitution‟s Board of Directors
terminated the LSC contract and designated the position of president to oversee the
organization.

Once operational, Constitution used aggregated surplus funds of Connecticut credit
unions for investment. Initially, the objective was to provide credit unions with low-
cost liquidity from surplus credit union funds recycled to those credit unions
experiencing shortfalls in their funding due to a variety of reasons. The aggregating
of resources also resulted in investor credit unions receiving market yields on
investments made through Constitution. The guiding investment philosophy
involved a commitment to a matched investment strategy in which sources of funds
(credit union deposits at Constitution) were, for the most part, matched by dollar,
rate, and maturity with uses of funds (Constitution's investments). Constitution
employed this matched portfolio management strategy for reasons of prudence and
safety and incorporated early withdrawal penalties to insure commitments. In late
1980, Constitution began focusing on developing a full range of financial and
payment services for member credit unions.

In July 2005, members voted to convert to a federal charter. Effective
September 16, 2005, NCUA issued the credit union a federal charter and it became
known as Constitution Corporate Federal Credit Union.

Although Constitution had a national field of membership, it primarily delivered
support, investment, and correspondent services to natural person credit unions
located in Connecticut. As of July 31, 2010, Constitution managed approximately
$1.2 billion in assets for its members.
                                                                                     4
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



Constitution was a mid-tier corporate credit union within a three-tiered structure of
the Nation‟s credit union system. The mid-tier corporate credit unions provide
liquidity, as well as a range of transactional products and services to the bottom tier,
which consists of the NPCUs. The NPCUs invest their excess funds in a corporate
credit union. The invested funds are drawn down to meet increasing liquidity
demands due to member loan demand and share withdrawals.

NCUA‟s Evaluation of Investment Activities

Constitution invested its members‟ liquid funds primarily in securities and interest-
earning deposits at U. S. Central. The investment portfolio represented, on
average, 97 percent of Constitution‟s total assets from December 31, 2005, through
September 30, 2010.

The composition of Constitution‟s investment portfolio was primarily mortgage- and
asset-backed securities and deposits at U.S. Central as illustrated in Chart 1
(below).

Chart 1: Constitution’s Investment Portfolio Composition

  70.00%


  60.00%


  50.00%


  40.00%


  30.00%


  20.00%


  10.00%


   0.00%
                 2005         2006          2007           2008         2009          2010

           Mortgage-Backed Securities     U.S. Central Obligations   Asset-Backed Securities


Source: NCUA 5310 Reports as of December 31, 2005, 2006, 2007, 2008 and 2009; and as of
September 30, 2010

                                                                                               5
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



Mortgage-backed securities represented a significant concentration in Constitution‟s
investment portfolio. Mortgage-backed securities were approximately 47 percent of
total investments as of December 31, 2005, and increased to a high of 61percent
as of December 31, 2007. Mortgage-backed securities declined to approximately
32 percent of total investments in 2009 and 2010 due to the continued devaluation
of mortgage-backed securities held in the portfolio, reinvestment of securities‟
proceeds as they matured into other products, and greater retention of cash to meet
members‟ liquidity needs.

Constitution also invested a significant amount of funds with U.S. Central for
purposes of meeting the short-term liquidity needs of their members. Deposits at
U.S. Central ranged from a low of 31percent of the investment portfolio as of
December 31, 2007 to a high of 59 percent as of December 31, 2009.

Beginning mid-2007, the mortgage-backed securities market experienced a
significant dislocation, which resulted in severe declines in the market value of
these types of structured securities. Trading of mortgage-backed securities was
substantially restricted later that year due to investors‟ uncertainty regarding the
quality and value of the underlying loans. Due to the market deterioration,
Constitution‟s investments in mortgage-backed securities experienced significant
declines in credit ratings and market value.

As of December 31, 2007, Constitution reported net unrealized losses on securities
of $59 million, compared with the prior year in which a small unrealized loss was
recorded. Constitution‟s management determined the unrealized losses were
temporary at that time. As stated in the December 31, 2007, audited financial
statements:

         “Due to the underlying credit support of these securities and Constitution‟s
        available sources of liquidity, management concluded that none of the
        unrealized losses on these securities represent other-than-temporary
        impairment as of December 31, 2007.”

As of July 31, 2010, Constitution held marketable securities with a book value of
$1.2 billion. Of this $1.2 billion, $238 million was comprised of private label
mortgage-backed securities, $21 million was comprised of commercial mortgage-
backed securities, and $93 million was comprised of asset-backed securities. The
Office of Corporate Credit Unions (OCCU) determined that at this time at least $352
million or approximately 30 percent of the investment portfolio was illiquid in the
current markets.

Constitution recorded OTTI charges of $122 million from 2008 through July 2010.
These charges resulted in a net deficit to undivided earnings in July 2010.
Constitution had to deplete its member-contributed capital in an attempt to eliminate
the undivided earnings deficit. As of July 31, 2010, undivided earnings had a deficit
of $24 million and the capital ratio declined to -1.88 percent. NEV was negative
                                                                                        6
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



$162 million or negative 13.55 percent. Constitution posted a net loss of $84 million
in 2008 and $100 million in 2009 due primarily to the OTTI charges and the write-off
of $34 million related to U.S. Central Membership Capital.

Due to the illiquidity of the mortgage and asset backed securities markets, it was
difficult for Constitution to sell these securities or use them as collateral for
borrowings, which therefore limited sources for Constitution and its members‟
liquidity needs. This impeded management‟s ability to reposition the balance sheet
through sales of securities without incurring irrecoverable losses.

Constitution‟s liquidity concerns were compounded by a deposit concentration of a
member credit union, which represented 55.7 percent of Constitution‟s total shares
and certificates as of July 31, 2010. The vast majority of these deposits were term
deposits maturing within a two year window; however, early withdrawal by the
member credit union could have created a liquidity crisis for Constitution.

Constitution experienced further restrictions in its liquidity sources as U.S. Central
also realized losses resulting from the declining value of their own mortgage-
backed securities portfolio and could not meet the liquidity demands of its retail
corporate credit union members.

In October 2008, NCUA implemented the Corporate Stabilization Plan, which
included several liquidity programs designed to provide funding to the corporate
credit unions through the Central Liquidity Fund. The Temporary Corporate Credit
Union Liquidity Guarantee Program stabilized Constitution‟s remaining unsecured
borrowing sources. NCUA stabilization efforts continued with the Temporary
Corporate Credit Union Share Guarantee Program (TCCUSGP), which
constructively increased deposit insurance on all member share accounts beyond
the statutory minimum. This program provided some assurance to members, in
particular the member credit union who as previously mentioned, represented a
large deposit concentration at Constitution.

On September 24, 2010, the NCUA Board placed Constitution into conservatorship
and appointed itself Conservator. On November 30, 2010, NCUA placed
Constitution into liquidation and through a purchase and assumption agreement
transferred certain assets, liabilities and shares to Members United Bridge
Corporate Federal Credit Union.6




6
 On September 28, 2010 the NCUA Board chartered Members United Bridge Corporate Federal Credit Union
and immediately placed it into conservatorship.
                                                                                                       7
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



Objectives, Scope and Methodology

We performed this material loss review to satisfy the requirements of the FCU Act,
which requires the NCUA OIG to conduct a material loss review of an insured credit
union if the loss to the NCUSIF7 exceeds $25 million.8 NCUA confirmed that as of
July 2011, the Temporary Corporate Credit Union Stabilization Fund (TCCUSF) had
recorded a loss of $145 million for Constitution. Consequently, in accordance with
the FCU Act and Chapter 3 of the NCUA Special Assistance Manual, NCUA OIG
contracted with Crowe to conduct a material loss review of Constitution.

Our audit objectives were to: (1) determine the cause(s) of Constitution‟s
conservatorship, (2) assess NCUA‟s supervision of the corporate credit union, and
(3) make appropriate recommendations to prevent future losses.

We conducted this review from January 2011 to August 2011 in accordance with
generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained as described in the Scope and Methodology
section, provides a reasonable basis for our findings and conclusions based on our
audit objectives.

The scope of this review included an analysis of Constitution from
November 30, 2004, to September 24, 2010, the date the NCUA placed the credit
union in conservatorship. Our review also included an assessment of NCUA
regulatory supervision of the institution during the same period. In determining why
NCUA placed Constitution in conservatorship, we did not analyze any potential
impact from the actions of third-party providers. This included, but was not limited
to underwriters, issuers, or NRSROs that may have impacted the losses sustained
by Constitution or the TCCUSF.

To achieve our objectives, we performed the following procedures and utilized the
following techniques:



7
  On May 20, 2009, Congress enacted the Helping Families Save Their Homes Act, which amended the
Federal Credit Union Act to create the Temporary Corporate Credit Union Stabilization Fund (TCCUSF). The
TCCUSF established a process for attaining funds to pay costs associated with the corporate credit union
stabilization by borrowing from the U.S. Department of the Treasury and repaying the borrowed funds with
assessments of all federally insured credit unions over a seven-year period. One of the costs incurred to
stabilize the corporate credit unions included guaranteeing the natural person credit unions‟ deposits in the
corporate credit unions. The payment of the insured amounts in a liquidating corporate credit union is primarily
a liability of the NCUSIF. However, the TCCSUF legislation allows the NCUA Board to use the TCCSUF to
make the payment.
8
  The FCU Act, 12 U.S.C. § 1790d, §216(j) requires that the OIG conduct a review when the NCUSIF has
incurred a material loss with respect to a credit union. A material loss is defined as (1) exceeding the sum of
$25 million and (2) an amount equal to 10 percent of the total assets of the credit union at the time at which the
Board initiated assistance or was appointed liquidating agent.
                                                                                                                 8
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



            We analyzed NCUA examination and supervision contact reports and
             related correspondence and workpapers contained within the
             examination databases.

            We interviewed management and/or staff from NCUA‟s OCCU and Office
             of Capital Markets (OCM) and reviewed NCUA guides, policies and
             procedures, as well as NCUA Call Reports (Corporate 5310 Reports).

            We reviewed Constitution data and correspondence maintained at the
             NCUA in Alexandria, VA as provided to Crowe by NCUA.

Crowe relied primarily upon the materials provided by the NCUA OIG and NCUA
OCCU officials, including information and other data collected during interviews.
We relied on our analysis of information from management reports, correspondence
files, and interviews to corroborate data obtained to support our audit conclusions.
We conducted interviews to gain a better understanding of decisions made
regarding the activities of credit union management and the NCUA‟s supervisory
approach, and to clarify information and conclusions contained in reports of
examination and other relevant supervisory correspondence between the NCUA
and Constitution. Crowe relied on the information provided in the interviews without
conducting additional specific audit procedures to test such information.




                                                                                  9
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



Results in Detail

We determined that Constitution‟s management and Board of Directors (Board)
contributed to the conservatorship and liquidation as well as the resulting material
loss. Further, we determined that the NCUA9 could have reduced the loss to the
TCCUSF had they more aggressively pursued resolution to issues related to
Constitution‟s high credit risk and concentration in its investment portfolio.

A. Why NCUA Conserved Constitution Corporate Federal Credit Union

    Inadequate             We determined NCUA conserved Constitution, in part,
                           because of inadequate management and Board oversight
    Management and
                           that exposed the credit union to excessive amounts of
    Board Oversight        financial risk due to significant holdings of private label
                           mortgage-backed securities including subprime and Alt-A
mortgage-backed securities. Constitution‟s management and Board failed to
identify and manage this risk prior to the severe market value decline that occurred
starting in mid-2007 and became more severe in 2008 and 2009. Specifically, in
regards to managing the investment portfolio, Constitution management:

            Relied heavily on ratings assigned to the securities by Nationally
             Recognized Statistical Rating Organizations (NRSRO) when purchasing
             securities for the portfolio and when monitoring the amount of credit risk
             in the investment portfolio;

            Did not establish prudent sector concentration limits to reduce the credit
             risk exposure related to the underlying assets of the mortgage-backed
             securities;

            Did not properly identify and monitor credit risk exposure in the
             underlying mortgage loan collateral of the mortgage-backed securities
             held in the investment portfolio; and

            Failed to recognize the substantial risk they were undertaking with
             significant investments in complex mortgage-backed securities, with a
             substantial portion of these securities backed by subprime assets.

These factors led to increased exposure to higher risk investments largely secured
by subprime mortgage loan collateral, including exposure at U. S. Central due to its
9
  Primary supervisory responsibility of corporate credit unions lies with OCCU. In addition, OCM develops
agency policies and procedures related to credit union investments and asset liability management. OCM also
assists OCCU examiners in evaluating investment and asset liability management issues in credit unions. We
reviewed OCM„s role in the examination of Constitution during the November 2004 through June 2009
examinations and determined that prior to the June 2009 examination, OCM„s assistance was not used. During
the June 2009 examination, an OCM specialist was used for reviewing Asset/Liability Management and
Liquidity. The June 2009 examination marked the first involvement of OCM staff in reviews and these
specialists were not used to evaluate the investment portfolio.
                                                                                                        10
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



significant concentration of mortgage-backed securities. The concentration in
mortgage-backed securities left Constitution vulnerable to downturns in national
and local economic conditions and the decline in the residential real estate market.
Constitution‟s Board and management failed to adequately diversify the investment
portfolio and secure other sources of liquidity outside of the credit union structure.
The consequences of Constitution‟s management and Board‟s inadequate
oversight were:

       Substantial unrealized losses recorded to capital related to the deterioration
        of the market value of mortgage-backed securities held in Constitution‟s
        investment portfolio. As of December 31, 2008, Constitution management
        recognized substantial OTTI losses related to further deterioration of the
        credit quality of the mortgage-backed securities.

       Market value declines and ratings downgrades severely limited Constitution‟s
        ability to sell mortgage-backed securities in the marketplace, hampering
        liquidity sources necessary to meet member credit union needs.
        Constitution‟s ability to obtain funding sources on reasonable terms and
        costs became difficult due to the declining value of the securities portfolio
        which restricted them from having securities available to pledge against
        borrowings, leading to an unsatisfactory liquidity position.

       Due to Constitution‟s weakened financial condition, the increased cost
        related to the issuance of commercial paper in the marketplace was no
        longer a viable option, impeding efforts to issue debt to fund liquidity.

       Economic insolvency as Constitution‟s NEV deteriorated due to the market
        value declines in the investment portfolio.

       Constitution was placed into conservatorship on September 24, 2010. On
        November 30, 2010, Constitution was liquidated and certain assets and
        liabilities were purchased and assumed by Members United Bridge
        Corporate Federal Credit Union.




                                                                                     11
       Material Loss Review – Constitution Corporate Federal Credit Union
       OIG-11-09



       Table 1 (below) summarizes selected financial information for Constitution.

       Table 1


                                                 Key Financial Data and Ratios ($000's)



                                         12/31/06         12/31/07          12/31/08        12/31/09       07/31/10


Total Assets                               1,763,399        1,678,357        1,311,827       1,291,542      1,219,575

Deposits With Other Financial
                                            793,765           504,137            576,561       795,367        802,065
Institutions

Investments (amortized cost)                900,351         1,164,500            979,616       640,687        382,964

Accumulated Unrealized Gains
(Losses) from Available for Sales              (504)          (59,474)        (284,553)       (184,195)      (137,758)
Securities

Members’ Share Accounts                    1,668,286        1,569,580        1,502,677       1,494,350      1,345,795

Short-term Borrowings                         35,895          103,474            114,999               -              -

Total Member’s Equity (Deficit)               47,692           (7,657)        (317,021)       (209,297)      (161,695)

Net Economic Value                          116,803            54,028         (230,021)       (217,506)      (161,695)

Regulatory Capital Ratio                      7.10%             6.46%             2.07%          (1.81)         (1.88)

Retained Earnings Ratio                        3.0%             2.85%            (2.01%)         (1.81)         (1.88)

Net Income (loss)                              2,476            3,621            (84,285)     (100,082)         1,165


       Source: Audited financial statements and July 31, 2010 NCUA 5310 report

       Constitution’s Investment Strategy

       The majority of the investment portfolio consisted of asset-backed securities and
       privately issued mortgage-backed issues along with smaller amounts of
       government agency mortgage-backed securities, commercial mortgage-backed
       securities, and commercial debt obligations.

       Mortgage-Backed Securities

       During the period from 2005 through September 2010, mortgage-backed securities
       represented a significant concentration within Constitution‟s investment portfolio.
       Mortgage-backed securities represented 47 to 52 percent of the investment
       portfolio as of December 31, 2005, and 2006, respectively. In 2007, mortgage-

                                                                                                           12
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



backed securities represented a larger percentage of the portfolio, increasing to
61 percent of the total portfolio. In 2008 through 2010, mortgage-backed securities
declined to a low of 32 percent of the investment portfolio due to the devaluation of
the securities and reinvestment of maturities and repayments into cash and
deposits at U.S. Central. Chart 2 (below) provides mortgage-backed securities as a
percentage of total investments.

Chart 2:


               Mortgage-Backed Securities as a Percent of Total
                               Investments
     70.00%

     60.00%

     50.00%

     40.00%

     30.00%

     20.00%

     10.00%

      0.00%
                  2005            2006               2007         2008            2009            2010

                                                st
Source: NCUA 5310 Report as of December 31 and September 30, 2010


In 2004, Constitution applied for and received conditional approval for Part I
Expanded Authority.10 On May 16, 2005, Constitution was granted Part I Expanded
Authority allowing them to migrate further down the investment credit curve in an
effort to enhance yields and remain competitive with other corporates in providing
attractive rates for member deposits.



10
   Part I Expanded Authority allows a corporate credit union maintaining a minimum capital ratio of at least six
percent, to: (1) purchase investments with long-term ratings no lower than A− (or equivalent); (2) purchase
investments with short-term ratings no lower than A−2 (or equivalent), provided the issuer has a long-term
rating no lower than A− (or equivalent), or the investment is a domestically-issued asset-backed security; (3)
engage in short sales of permissible investments to reduce interest rate risk; (4) purchase principal only (PO)
stripped mortgage-backed securities to reduce interest rate risk; and (5) enter into a dollar roll transaction.
Corporate credit unions under Part I Expanded Authority must perform rate stress tests. Under these stress
tests, their NEV may decline as much as: (1) 20 percent if the corporate credit union has a six percent minimum
capital ratio; (2) 28 percent if the corporate credit union has a seven percent minimum capital ratio and is
specifically approved by NCUA; or (3) 35 percent if the corporate credit union has an eight percent minimum
capital ratio and is specifically approved by NCUA.
                                                                                                             13
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



Constitution management began to add lower rated securities (AA and A-) to the
portfolio which were primarily private label residential mortgage-backed securities
and second lien home equity mortgage-backed securities. Chart 3 (below)
illustrates the increase in mortgage-backed securities in the investment portfolio in
relation to changes in total assets and deposits at U.S. Central. According to the
March 31, 2007, Examination Report, the exposure related to mortgage-backed
securities peeked at slightly over $1 billion or 50 percent of total assets.

Chart 3: Mortgage-Backed Securities Growth

               $2.000
    Billions




               $1.800
               $1.600
               $1.400
               $1.200
               $1.000
               $0.800
               $0.600
               $0.400
               $0.200
               $0.000
                           2004        2005          2006        2007      2008        2009         2010

                        Total Assets          Mortgage-Backed Securities      Deposits at U.S. Central


                                                     st
Source: NCUA 5310 Report as of December 31 and September 30, 2010


Prior to 2007, Constitution‟s investment securities portfolio showed evidence of a
shift from AAA rated securities to higher-yielding, AA and A-rated securities, as
mortgage-backed securities were added to the investment portfolio. The March 31,
2007, Examination Report indicated that Constitution‟s investment portfolio
consisted of 75.4 percent AAA rated securities, 18.1 percent AA rated securities,
and 6.5 percent A rated securities, as illustrated in Chart 4 (below), compared with
89.5 percent AAA rated securities,10.4 percent AA rated securities, and 8.0 percent
A rated securities as of November 30, 2004.




                                                                                                           14
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



Chart 4: Investment Portfolio Mix by Rating as of March 31, 2007


                              March 31, 2007
                                   6.5%


                                                                     AAA
                           18.1%
                                                                     AA


                                              75.4%                  A




Source: Audited Financial Statements

Due to the market dislocation, Constitution‟s securities, primarily mortgage-backed,
began to show signs of deterioration in market value; though the ratings remained
consistent with their March 2007 designations. As of December 31, 2007,
investments carrying a rating of AAA declined to 74 percent while AA and A rated
investments increased to 19.3 and 6.5 percent of the portfolio, respectively, as
illustrated in Chart 5 (below).

Chart 5: Investment Portfolio Mix by Rating as of December 31, 2007


                             December 31, 2007

                                    6.5%
                                                                          AAA
                           19.3%
                                                                          AA

                                                                          A
                                                 74.2%




Source: Audited Financial Statements



                                                                                  15
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



As of December 31, 2007, Constitution reported net unrealized losses on securities
of $59 million, compared with the prior year in which a small unrealized loss was
recorded. Constitution‟s management determined that these losses were
temporary at that time. Per the December 31, 2007, audited financial statements:

        “…it was determined that sufficient credit support currently exists to ensure
        continued payment of principal and interest. In addition, Constitution has the
        intent and ability to hold these securities until prices recover or principal is
        repaid. Constitution believes the decline in market value of these
        investments is due to the combination of unique market conditions including:
        (1) the general credit spread widening caused by market concern over the
        credit quality of residential mortgage-backed securities and (2) an imbalance
        between market supply and demand for these securities. Due to the
        underlying credit support of these securities and Constitution‟s available
        sources of liquidity, management concluded that none of the unrealized
        losses on these securities represent other-than-temporary impairment as of
        December 31, 2007.”

As of December 31, 2008, and June 30, 2009, Constitution experienced further
downgrades to its credit ratings with 7 percent of the securities held in the
investment portfolio dropping below a rating of A. Investments rated below A
increased to 20 percent of the portfolio as of June 30, 2009, as illustrated in Charts
6 and 7 (below).

Chart 6: Investment Portfolio Mix by Rating as of December 31, 2008


                             December 31, 2008

                        5.5%
                                   7.0%
                                                                     AAA


                        11.8%                                        AA

                                                                     A


                                                  75.7%              <A




Source: Audited Financial Statements


                                                                                     16
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



Chart 7: Investment Portfolio Mix by Rating as of June 30, 2009


                                June 30, 2009

                                                                          AAA
                             20.4%
                                                                          AA
                  4.7%
                                                                          A
                         8.9%
                                              66.0%                       <A




Source: NCUA Examination Report as of June 30, 2009

Table 2 (below) illustrates the composition of Constitution‟s private label mortgage-
backed securities as of December 31, 2007, 2008, and 2009.

Table 2:


           Composition of Private Label Mortgage-Backed Securities

 (in $000’s)                 December 31, 2007        December 31, 2008         December 31, 2009
 Private label, mortgage-
 backed securities                        $870,497                   $476,098               $344,884

 Prime (FICO >719)                            55%                        59%                    54%
 Near-prime (FICO 620 –
 719)                                         24%                        21%                    23%
 Sub-prime (FICO <620)
                                              21%                        20%                    23%

Source: Audited Financial Statements

The composition of the private label mortgage-backed securities remained fairly
consistent after December 31, 2007. In the audited financial statements, auditors
described the quality of the mortgage-backed securities as follows:

        “Residential mortgage-backed security structures are comprised of many
        classes of securities, with various levels of subordinated classes being first
        to absorb losses experienced on the underlying mortgage loan collateral and
        thus providing credit enhancement to the senior classes. Constitution‟s
        residential mortgage-backed securities are generally classes which are
                                                                                                       17
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



        senior to the subordinate classes. A small amount of Constitution‟s
        securities have insurance coverage to further support the senior classes in
        the event of deteriorating collateral performance.”

Deposits at U.S. Central

Constitution had a significant amount of funds invested at U.S. Central. Chart 8
(below) indicates the percentage of total assets represented by funds deposited at
U.S. Central.

Chart 8: Deposits at U.S. Central as a Percent of Total Assets

  70.00%

  60.00%

  50.00%

  40.00%

  30.00%

  20.00%

  10.00%

   0.00%
             2005             2006            2007            2008   2009   2010
                                              st
Source: NCUA 5310 Report as of December 31 and September 30, 2010

Because U.S. Central had a significant amount of funds invested in mortgage-
backed securities, Constitution‟s investments held at U.S. Central represented
indirect credit exposure related to investments in mortgage-backed securities.
Constitution, when determining concentration limits in mortgage-backed securities,
did not consider this indirect exposure. Due to the securities losses experienced by
U.S. Central which depleted their capital, Constitution recorded losses from capital
investments at U.S. Central which, as of July 2011, totaled approximately
$34 million.

Although, investments at U.S. Central added to the overall mortgage-backed
securities exposure at Constitution, the Share Guarantee put in place by the NCUA
mitigated the impact of this exposure. The Share Guarantee extended the existing
Insurance Fund coverage for corporate credit unions‟ member share accounts
beyond the $250,000 statutory limit to cover the entire balance of each such
account.



                                                                                      18
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



Diminished Liquidity

To meet its short-term liquidity needs, Constitution relied primarily on funds
invested and borrowed from U.S. Central. From December 31, 2005, through
September 30, 2009, funds invested at U.S. Central ranged from approximately 30
to 60 percent of total assets.

In 2007, U.S. Central increased Constitution‟s line of credit to $450 million. Access
to the line of credit was not guaranteed by U.S. Central. This line of credit with U.S.
Central was increased in 2008 and 2009 to $500 and $650 million, respectively.

In July 2002, Constitution management authorized the issuance of up to $130
million in commercial paper. Constitution issued commercial paper periodically
over the years to meet short-term liquidity needs. As of August 31, 2009,
Constitution discontinued its commercial paper program after determining the
commercial paper market was no longer a viable source of funding as cost of
issuance increased due to Constitution‟s weakened financial condition.

As of December 31, 2008, Constitution maintained reverse repurchase agreement
lines with various brokers totaling $950 million as an additional source of liquidity.
These reverse repurchase agreement lines required pledging investment securities
as collateral against the amount borrowed. Collateral available for pledging against
these lines deteriorated not only with the declines in the market values of
Constitution‟s securities, but also with the further discounting of the collateral value
applied by the lender. The value of the securities available to pledge as collateral
against borrowings was approximately $200 million as of December 31, 2008.

Constitution was also an agent member of the Central Liquidity Facility (CLF),
which is a mixed-ownership government corporation established as an additional
liquidity facility for credit unions in the United States. As an agent member of the
facility, Constitution could request the facility to assist them in obtaining funds to
meet the liquidity needs of its members.

As U.S. Central began to experience liquidity constraints due to losses resulting
from the declining value of their own mortgage-backed securities portfolio,
Constitution looked for additional sources of liquidity. During 2008, Constitution
established Fed Funds lines with several financial institutions including Wachovia
Bank ($15 million), Bank of America ($30 million), and Pacific Coast Bankers‟ Bank
($67 million). Wachovia suspended their line as of April 14, 2009. Bank of America
did not guarantee the availability of their line, which they could reduce without
notice, and the Pacific Coast Bankers‟ Bank line increased to $100 million in
February 2009 and was reliant on the NCUA Guarantee of unsecured debt.

In December 2008, in an effort to expand its sources of available liquidity,
Constitution obtained access to the Federal Reserve Bank of Boston discount
window. Constitution intended to access the discount window only as a last resort
                                                                                         19
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



after all other sources of available credit were utilized. The Federal Reserve Bank
of Boston notified Constitution in September 2009 that access to the discount
window was inconsistent with its financial condition and that access would only be
granted after consultation with the NCUA. In 2009, Constitution did obtain a $350
million secondary line of credit with the Federal Reserve Bank that would be used
only as a last resort.

Liquidity concerns were compounded by a deposit concentration. One member
credit union consistently represented over 50 percent of Constitution‟s total shares
and certificates between 2008 and into 2010. Although the relationship between
Constitution and this member credit union was strong and the level of their deposits
appeared consistent, Constitution would not have been able to fund a significant
and immediate withdrawal by this member without realizing losses that would
prevent Constitution from being able to meet the normal liquidity needs of the
remaining membership.

Given the unique situation of this single large depositor, we determined Constitution
management and examiners continuously monitored the deposit concentration.
The market dislocation and increased liquidity demands made the deposit
concentration a greater risk. However, we found in the March 2007 examination
report (effective March 31, 2007) that examiners had noted the following:

         “… a worst case scenario has been added where 100 percent of the term
        liabilities of the two largest depositors and 75 percent of overnight liabilities
        are withdrawn. This worst-case scenario shows the corporate still having an
        excess of $303 million in borrowing capacity. However, there would be a
        significant impact on earnings if this event occurs. CCFCU has sufficient
        options available to meet projected liquidity needs. Staff also prepares daily
        and monthly cash flow analysis and projections documenting adequate
        sources of funds exist.”

It was not until the August 31, 2008, report of examination that examiners noted
Constitution could not fully fund a significant immediate withdrawal by the member
credit union with the deposit concentration without realizing losses that would
render the corporate unable to meet even normal liquidity needs of the remaining
membership.

Through interviews with examiners and review of examination reports, we learned
the CEO of the member credit union with the deposit concentration was on the
Board of Constitution and that he provided assurances to both Constitution
management and NCUA examiners that the credit union would not withdraw
deposits from Constitution.




                                                                                       20
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



As previously noted, in October 2008, NCUA implemented the Corporate
Stabilization Plan11, which included several liquidity programs designed to provide
funding to the corporate credit unions. The Corporation Stabilization Program
included the following efforts by the NCUA:

        Established a Temporary Corporate Credit Union Liquidity Guarantee
         Program by which the Insurance Fund guaranteed repayments of unsecured
         debt issued between October 16, 2008 and June 30, 2009, which was later
         extended to debt issued prior to June 30, 2010.

        Established a Temporary Corporate Credit Union Share Guarantee Program
         to build member confidence in the credit union system. The Share
         Guarantee extended the existing Insurance Fund coverage for corporate
         credit union‟s member share accounts beyond the $250,000 statutory limit to
         cover the entire balance of each such account.

The Temporary Corporate Credit Union Liquidity Guarantee Program stabilized
Constitution‟s remaining unsecured borrowing sources. The Temporary Corporate
Credit Union Share Guarantee Program provided assurance to members, in
particular the member credit union, which held a large deposit concentration at
Constitution.

Management and Board Oversight of Constitution‟s Investment Strategy

We determined Constitution‟s management and Board did not practice sound risk
management principles. Specifically, based on our review of Constitution‟s policies,
Asset/Liability Committee (ALCO) reports and meeting minutes, and discussions
with examiners, we believe management focused primarily on obtaining yield in
order to compete with larger corporate credit unions. As a result, Constitution‟s
management permitted significant holdings of mortgage-backed securities without
fully understanding the credit risks associated with such complex investments and
the related risk this concentration posed on the ability of Constitution to serve its
primary purpose of being a liquidity source for its members.

We also determined Constitution‟s investment portfolio had a significant level of
credit risk associated with the large concentration of mortgage-backed securities
and was not adequately identified and managed by its management and Board. In
addition, management was slow to react to the market dislocation to ensure the
credit union had sufficient liquidity.

Constitution‟s ALCO minutes indicated management focused on yields to allow
them to service natural person credit unions. Constitution‟s August 2006 ALCO
minutes reflected management‟s focus as follows:
11
  The NCUA‟s Corporate Stabilization Program, approved in January 2009, consisted of a series of actions
designed to add stability to and strengthen corporate credit unions. The purpose of these actions was to
maintain liquidity, strengthen capital, and restructure the corporate system.
                                                                                                           21
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



        “Mr. _____ presented the Rate Comparison, as well as the one-month and
        three-month averages as of 8/17/06… Discussion followed regarding
        Constitution‟s rates as compared to the competition, EasCorp & Members
        United. Mr. ______ stated that we are trying to be as competitive as
        possible…”

Additionally, our review of Constitution‟s 2006 Board-approved Strategic Plan noted
the following:

        “Constitution Corporate management remains committed to the premise that
        members receive the optimal return for their investment dollars placed with
        the corporate. The pursuit and attainment of additional expanded investment
        authorities is considered intertwined with the interest of its membership.
        From an investment perspective, the ability to serve the membership
        remains firmly grounded in the level of competitiveness of its investment
        offerings. The degree of rate competitiveness is directly related to levels of
        investment authority. Additional authorities will enable Constitution to
        provide competitive investment product without compromising the
        organization‟s net interest margin. Without these authorities, margin
        compression and sub-optimal return on asset performance will result. As the
        competition for member deposits intensifies and the corporate landscape
        changes, growth of average net asset balances will reflect the degree of rate
        competitiveness associated with Constitution‟s investment offerings. Our
        membership is currently being actively solicited by various corporate credit
        unions both within and outside of the New England marketplace.
        Commoditization of investment products mandates the rate competitiveness
        as a prerequisite competitive weapon…”

The 2007 Strategic Plan noted the following as well:

        “…Constitution should be able to compete more successfully within the
        national marketplace against the „tier one‟ corporates (WesCorp,
        Southwest/Southeast, Members United).”

Constitution‟s management did not establish prudent sector concentration limits to
limit exposure to the underlying assets related to mortgage-backed securities;
rather management and the Board modified the Credit Risk Management policy to
allow further concentrations of mortgage-backed securities. Our review of the
February 1, 2007, ALCO meeting minutes noted the committee approved changes
to policy sector limits as follows:

       Concentration limits on private label mortgage-backed securities and
        Collateralized Mortgage Obligations (CMO) increased from 35 percent to 60
        percent of total net assets.


                                                                                   22
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



       Limits on home equity asset-backed securities increased from 25 percent to
        40 percent of total net assets.

       Agency CMO limits increased from 40 percent to 75 percent of total net
        assets.

The above changes were approved by six (6) Directors, with two (2) Directors
voting in opposition of the changes.

The August 31, 2008, report of examination noted the following:

        “Credit concentration limits do not adequately reflect market sector risks from
        direct and indirect investments... Current overly-generous investment limits
        increase the potential of loss during systemic events. Also, the application of
        the existing limits allowed management to concentrate purchases in
        mezzanine tranches representing greater credit risk.”

Examiners instructed management to revise and implement concentration limits to
ensure prudent investment portfolio diversification and appropriately minimize
correlation risk.

Effective June 4, 2008, Constitution‟s chief investment officer elected to resign.
This resignation left the primary and secondary investment positions vacant as the
director of investments had left the credit union several months earlier. Constitution
management did proactively suspend its use of Part I expanded authority during the
search for replacements for both vacant positions.

The high concentration of mortgage-backed securities impacted Constitution‟s
liquidity and management did not proactively seek to secure liquidity sources as the
market dislocation continued. The liquidity issues at Constitution were
compounded by a deposit concentration that represented over 50 percent of
Constitutions total shares and certificates between 2008 and into 2010. During our
review of the 2008 report of examination, we noted the following significant issues
with liquidity:

        “Management has been slow to react to the current market dislocation in
        garnering and ensuring sufficient liquidity. While current liquidity sources
        and experience demonstrate the ability to serve membership, the corporate‟s
        ability to manage a significant liquidity demand beyond normal levels is
        highly questionable. With significant liquidity issues experienced at financial
        institutions such as Lehman Brothers, Washington Mutual Savings, and
        Merrill Lynch, the corporate needs to become more proactive and aggressive
        in ensuring available liquidity beyond normal levels. Although management
        has explored other sources of liquidity, in the two months since the end of
        original field work, the corporate has secured only one new liquidity source.
        High unrealized mark-to-market investment losses, due primarily to
                                                                                    23
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



        overconcentration in investment mezzanine tranches collateralized by
        subprime mortgage debt, have deteriorated the corporate‟s ability to provide
        adequate liquidity to membership under all but normal liquidity conditions.
        This results in a capital level that, while continuing to meet regulatory capital
        requirements, is insufficient to survive a significant liquidity event and is not
        adequate in relation to the excessive investment portfolio concentration risk.”

Additionally, examiners issued two DORs regarding liquidity issues, as follows:

        “1) Liquidity Management - Corporate liquidity exhibits the following
        weaknesses: (A) Contingency testing does not adequately determine market
        acceptance of credit-impaired securities; (B) Liquidity sources are not
        adequately diverse or guaranteed; and (C) The liquidity plan overstates the
        corporate‟s true borrowing capacity.

        2) Liquidity Concentration - Liquidity policies and procedures do not provide
        sufficient guidance for significant deposit concentrations. Specifically lacking
        are: (A) Procedures to provide sufficient liquidity in case a large depositor
        withdraws significant funds; and (B) Procedures ensuring appropriate
        communications with significant depositors."

The 2009 Report of Examination showed further evidence that management was
slow to respond or react to liquidity needs, as follows:

        “Only after significant demands by NCUA following the last examination did
        management intensify its efforts to garner additional sources of external
        liquidity. …CCFCU‟s Available Lines Report shows $2.225 billion in total
        approved lines outstanding. The availability column in the same report,
        when calculated by the examiner indicated the amount currently available
        based on testing and internal assessments of $1.58 billion, instead of the
        $2.225 billion reported by management. The difference of $650 million is
        due to a calculation error in the total amount of the Available Lines Report.
        This liquidity availability report needs to more clearly portray the actual status
        of the external sources of liquidity.”

Additionally, although not specifically noted in a report of examination, the Chief
Executive Officer of Constitution was also on the Board at U.S. Central. Although
this was in line with how corporate credit unions and the Boards were structured,
there are governance issues and inherent conflicts of interest with this practice, as
evidenced by Constitution‟s investments in U.S. Central, discussed above.




                                                                                       24
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



B. NCUA Supervision of Constitution Corporate Federal Credit Union

                             We determined a contributing factor in the
     Examiners Could
                             conservatorship of Constitution was NCUA‟s failure to
     Have Mitigated the      adequately assess or timely identify key risks related to
     Loss to the TCCUSF      Constitution‟s investment portfolio related to the
                             concentration of mortgage-backed securities, until it
                             was too late. We also determined the lack of adequate
and timely oversight of Constitution was partially attributable to corporate examiners
not having the appropriate regulatory support, such as more specific investment
concentration limits, to adequately address Constitution‟s concentration risk and the
exposure to credit, market, and liquidity risks. As a result, examiners missed
opportunities to reduce the loss to the TCCUSF.

Supervisory Background

Constitution received Corporate Risk Information System (CRIS)12 Composite Risk
Ratings of 2 for both Composite Financial Risk and Composite Risk Management
during the 2004, 2006, and 2007 annual examinations. The examination reports
noted improved capital and earnings but noted that Constitution needed to continue
to build and maintain strong capital to offset the additional risks of Expanded
Authorities and strategic plans. Credit risk was increasing with the migration from
AAA rated securities to AA and A-rated securities; however, examiners determined
Constitution management had a handle on this increasing risk through close
monitoring and comprehensive analysis and reporting procedures.

Prior to 2008, examiners also noted share concentration risk was present but
indicated that the risk was mitigated with the large volume of term shares and
continued monitoring of liquidity risk including worst-case scenarios related to a 100
percent withdrawal of the two largest depositors‟ term balances. Examiners noted
Constitution had comprehensive strategic planning, capital planning, and budgeting
processes in place. Examiners also noted management closely monitored,
managed, and adequately reported on interest rate, credit, and liquidity/
concentration risks for Board review and analysis.

During the November 30, 2004, examination, examiners verbally communicated to
management the following related to investment concentrations:


12
  The Corporate Risk Information System (CRIS) is used to measure and report risk in the corporate credit
union system. As such, CRIS separates the assessment and communication of quantitative financial risk from
qualitative operational and managerial risks and assign individual Financial Risk and Risk Management
Composite and Component ratings. The Composite Financial Risk rating and its components represent the
degree of risk to Capital and Earnings. The ratings are defined as follows: 1 – Low Risk; 2 – Moderate
(Managed) Risk; 3 - High Risk; 4 – Excessive Risk; and 5 – Critical Risk. The Composite Risk Management
rating and its components represent the Quality of Policy or Risk Management Process. The ratings are
defined as follows: 1 – Exceptional; 2 – Acceptable; 3 – Minimally Acceptable; 4 – Inadequate; and 5 –
Seriously Deficient.
                                                                                                        25
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



        “The credit matrix and accompanying footnotes do not adequately address
        regulatory requirements regarding reasonable and supportable concentration
        limits for limited liquidity investments.”

        “The credit policy does not address ‟concentrations of credit risk‟ by industry
        type and sector type.”

Although investment concentration limits had not been established by Constitution‟s
management, as of the March 31, 2006, subsequent examination, examiners did
not note these repeat findings in the examination report or communicate them
verbally to management.

As a result of the 2007 examination, two Documents of Resolution (DORs) were
issued regarding management‟s digression from established agreed-upon
procedures relating to investment pre-purchase credit analysis required for granting
Part I Expanded Authorities. Examiners cited insufficient management oversight as
the cause for this digression away from the established procedures. The August
2008 examination report indicated that management took action to correct these
issues.

Significant downgrades were made to both the Composite Financial Risk and
Composite Risk Management ratings as a result of the August 2008 examination.
The Composite Financial Risk rating was downgraded from 2 to 4 based on
downgrades to each of the five components of the composite rating. The most
significant of these downgrades were made to Empirical Capital Level and Credit
Risk components which were both downgraded from 2 to 4. The Liquidity Risk
Component was also significantly downgraded from 1 to 4 during this examination.

Examiners cited the following as reasons for the downgrades:

        “High unrealized mark-to-market investment losses, due primarily to
        overconcentration in investment mezzanine tranches collateralized by
        subprime mortgage debt, have deteriorated the corporate‟s ability to provide
        adequate liquidity to membership under all but normal liquidity conditions.
        This results in a capital level that, while continuing to meet regulatory capital
        requirements, is insufficient to survive a significant liquidity event and is not
        adequate in relation to the excessive investment portfolio concentration risk.
        While earnings are historically appropriate for the corporate, they are
        currently unable to augment capital sufficiently to overcome unrealized mark-
        to-market losses. Additionally, standard interest rate risk measurements
        show a corporate currently excessively sensitive to interest rate changes.
        However, much of the volatility is due to enhanced credit risk, and a dollar
        interest rate risk volatility measure shows manageable interest rate risk.
        While market security prices are depressed, investment and cash flow
        analyses and projections continue to show a portfolio performing as

                                                                                      26
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



        expected. However, the risk of ultimate principal loss is elevated from prior
        periods as the credit weakness spreads from subprime to prime borrowers.”

During the August 2008 examination, examiners downgraded the Composite Risk
Management rating from 2 to 3 based on downgrades to five of the seven rating
components including Liquidity Risk Management and Board Oversight and
Compliance, which were both downgraded from 2 to 4. Capital Accumulation
Planning, Credit Risk Management, and Operating Risk were also downgraded
from 2 to 3. Examiners cited the following reasons for the downgrades:

        “As we approach the market contagion‟s one year anniversary, the board
        and management have been slow to react in evaluating alternative strategies
        to ensure adequate sources of liquidity. This slowness is also evident in
        capital planning that does not address capital adequacy in relation to the
        level of risk. While appropriately reviewing individual investment securities
        credit risk, concentration limits do not adequately address sector or tranche
        priority factors, resulting in the excessive concentration discussed throughout
        this report.”

As a result of the August 2008 examination, examiners issued several DORs
related to inadequate liquidity planning, inadequate policies and procedures
addressing significant deposit concentrations, credit concentration limits that did not
adequately reflect market sector risks from direct and indirect investments, and
inadequate capital planning.

The DORs called for the following action from management:

    1.) “Enhance the corporate‟s liquidity position and planning to enhance the
        corporate‟s access to sufficient liquidity in case of a significant liquidity event.

    2.) Prepare, adopt, and enact procedures to provide appropriate liquidity to a
        large depositor‟s potential liquidity needs, and ensure appropriate
        communication to foster confidence.

    3.) Revise and implement concentration limits to ensure prudent investment
        portfolio diversification and appropriately minimize correlation risk.

    4.) Develop capital goals sufficient to meet current and projected risk exposures
        of the institution.”

As a result of the August 31, 2008, examination, a Letter of Understanding and
Agreement (LUA) was issued. The LUA contained several provisions pertaining to
policies and strategies to address liquidity, credit concentration limits, and capital
adequacy concerns.


                                                                                         27
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



NCUA performed an on-site follow-up contact at Constitution in February 2009 to
review the status of the LUA, DOR, and material Other Examiner Findings (OEF)
issued as a result of the August 2008 examination. As a result of this follow up
contact, examiners noted:

    “Overall, management has been successful in addressing the 16 LUA
    provisions, 4 DORs, and the 20 OEFs documented in the August 31, 2008,
    examination report. The capital and liquidity issues continue to evolve as
    market and financial conditions have changed during the examination period.”

In addition to the follow up contact in February 2009, NCUA executed a TCCUSGP
supervisory agreement with Constitution. This agreement was further amended in
May 2009 and prohibited Constitution from engaging in any new activity pursuant to
the expanded authorities previously granted, unless approved in writing by the
Director of OCCU. Constitution management submitted the required cost reduction
and capital restoration plans to NCUA on February 27, 2009. NCUA sent back a
response on April 23, 2009, requesting additional information. On May 26, 2009,
NCUA sent a letter granting an extension to the cost reduction and capital
restoration plans. Constitution management submitted the plans on June 30, 2009,
and they were under review by OCCU staff and management as of the
June 30, 2009, examination. OCCU staff provided no further information about the
status of the plans; therefore, we could not determine whether they were eventually
approved by the NCUA.

Examiners made further downgrades as a result of the June 2009 examination.
The Financial Risk Composite was downgraded from 4 to 5 and the Risk
Management Composite rating was downgraded from 3 to 5. These downgrades
were due to the depletion of Constitution‟s capital caused by the continued
deterioration in the value of its mortgage-backed securities resulting in significant
losses recognized due to OTTI charges recorded against earnings, as well as
management and the Board‟s inability to implement strategies to manage the risks
related to the mortgage-backed securities concentration during the market
dislocation. As a result of this examination, examiners issued additional DORs
relating to financial reporting and capital adequacy plans. The DORs stated
Constitution did not provide full and fair disclosure of their financial statements to
the NCUA and Constitution‟s membership. Specifically, Constitution failed to timely
and accurately record and report losses from the write-off of their membership
capital at U.S. Central and OTTI charges relating to losses in the investment
portfolio in accordance with Generally Accepted Accounting Principles (GAAP). In
addition, Constitution did not incorporate current OTTI charges into their capital
restoration plan, as a result, examiners considered the plan no longer valid.

Examiners issued additional DORs regarding weak supervisory oversight that did
not prevent delayed financial postings and misleading financial reporting, inaccurate
reporting of available lines of credit for liquidity purposes, and the practice of paying

                                                                                      28
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



higher rates to a large member credit union depositor on shares guaranteed by
NCUA as part of the Corporate Stabilization Plan.

Examiners also identified and reported on 31 significant Other Examiner Findings
related to issues such as funds transfer, information systems, business continuity
planning, item processing, supervisory committee, compliance, liquidity, and
management.

Table 3 (below) provides the history of NCUA examinations and resulting CRIS
Composite ratings from November 2004 through June 2009.

Table 3:

                                     NCUA Examination History
 Report Issuance Date            03/23/05       06/27/06        06/27/07   10/30/08   09/10/09
 Exam As of Date                 11/30/04       03/31/06        03/31/07   08/31/08   06/30/09
 Exam Type                        Annual         Annual         Annual     Annual     Annual
 Composite Financial Risk            2              2                2        4          5
 Component:
 Empirical Capital Level             3              2                2        4          5
 Earnings Risk                       2              2                2        3          4
 Interest Rate Risk                  2              2                2        3          3
 Liquidity Risk                      2              2                1        4          5
 Credit Risk                         2              2                2        4          5
 Composite Risk Management           3              2                2        3          5
 Component:
 Capital Accumulation Planning       2              2                2        3          4
 Profit Planning and Control         2              1                2        2          3
 Interest Rate Risk Management       2              2                2        2          2
 Liquidity Risk Management           2              2                2        4          5
 Credit Risk Management              2              2                2        3          4
 Operating Risk                      3              2                2        3          5
 Board Oversight, Audit &            3              2                2        4          5
 Compliance

Source: Reports of Examination

Supervisory Efforts to Identify and Correct Key Risks Were Not Adequate

We determined NCUA did not timely communicate key risks related to
Constitution‟s investment portfolio even though they had identified credit and
concentration risks in the 2004, 2006, and 2007 exam workpapers. Specifically,
NCUA failed to require corrective action on the credit risk in Constitution‟s
investment portfolio related to the concentration of mortgage-backed securities until
                                                                                                 29
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



August 2008. By that time, severe market dislocation had occurred and
Constitution‟s significant holdings of mortgage-backed securities experienced rapid
declines in value and were increasingly illiquid. We believe stronger, more-timely
supervisory actions and restrictions on concentrations could have provided
opportunities for reasonable divestiture of investment securities without incurring
significant realized losses, which eventually caused the NCUA to conserve and
liquidate Constitution.

We also determined the lack of adequate oversight of Constitution is partially
attributable to NCUA not having appropriate regulatory support, such as specific
investment concentration limits, to adequately address Constitution‟s concentration
risk and increasing exposure to credit, market, and liquidity risks. This type of
regulatory support would have likely mitigated the rapid deterioration of
Constitution‟s financial condition and mounting investment losses as a result of the
extended credit market dislocation.

Prior to the August 2008 examination, NCUA examination reports discussed
investment portfolio concentrations in mortgage-backed securities and
Constitution‟s increased credit risk exposure to lower rated securities, including
sub-prime mortgage-backed securities. Although investment concentrations and
increased credit risk exposure were discussed, no significant concerns were noted
and no supervisory actions recommended. Examiners cited the following
conclusion in both the 2005 and 2006 Reports of Examination reports:

        “Risk exposures, while increasing with the additional volume of lower-rated
        securities, are adequately analyzed prior to purchase, monitored after
        purchase, and remain within both regulatory and policy parameters.”

The 2007 examination report contained the following conclusion regarding the credit
risk in the investment portfolio:

        “The investment portfolio, while heavily focused in structured mortgage-backed
        investments, is well managed by both the Investments and Risk Management
        departments.”

After the market dislocation in mid-2007, NCUA examiners noted the following
regarding Constitution‟s investment concentration in mortgage-backed securities
and sub-prime holdings of these securities in their August 2008 examination report:

        “Due to concentrated investment in residential securities, Constitution
        currently faces significant unrealized mark-to-market losses. While the exact
        amount the corporate will ultimately experience is not known, the magnitude
        and breadth of the unrealized mark-to-market losses is extensive. As of
        August 31, 2008, unrealized mark-to-market losses totaled $199,168,543, or
        18 percent of the total non-U.S. Central portfolio. These losses are
        concentrated in mezzanine tranches, which, though totaling 31.4 percent of
                                                                                      30
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



           the non-U.S. Central investments, account for 66.2 percent of the unrealized
           mark-to-market losses. The percentage attributed to mezzanine tranches
           declined from May 31, indicating unrealized mark-to-market losses are
           spreading across other investment classes. Adding to credit risk, the
           mezzanine classes were concentrated in the residential-related investments
           backed by B/C subprime and home equity asset-backed securities (ABS).
           These factors combined to magnify and concentrate credit risk by combing
           lower quality collateral with lower priority tranches which remain closer to the
           first loss position.

           Board-approved policies and management actions resulted in significant
           sector and structure concentrations. Policies allow management to invest up
           to 75 percent of assets in private issue securities backed by residential
           mortgages. Combined with a lack of tranche/priority concentration
           limitations, policies permit compounding credit risk exposure of lower quality
           collateral with lower priority tranches. It is imperative for corporate
           management and the board to review and revise investment limitations to
           reduce the potential of future excessive concentrations. Limitations should
           consider not only ratings, but also collateral type, collateral loss potential,
           and priority in the structure, at a minimum. Properly implemented, more
           comprehensive investment limitations could have muted the large unrealized
           mark-to-market losses currently experienced.”

We believe examiners should have communicated to Constitution management in a
more timely fashion and required corrective action regarding the substantial
concentration risk posed by Constitution‟s significant holdings in private label
mortgage-backed securities. Although the limits outlined in Constitution‟s policies
were in compliance with NCUA Regulation Parts 704.5(c) and 704.6 - Credit Risk
Management, we determined the regulations do not provide specific guidance
regarding concentration limits other than for investments in any single obligor, as
follows:

           (4) Concentrations of credit risk (e.g., originator of receivables,
           insurer, industry type, sector type, and geographic).
           (c) Concentration limits—(1) General rule. The aggregate of all
           investments in any single obligor is limited to 50 percent of
           capital or $5 million, whichever is greater.

NCUA‟s Corporate Examiner‟s Guide (Guide)13 discusses the varying degrees of
credit risk in the investment portfolio including the risk of the obligor or counterparty
and the structure of the transaction (i.e., quality of the underlying collateral, level of
subordination and/or credit enhancements). The Guide encourages examiners to
ensure that corporate credit unions are properly measuring, monitoring, reporting,
and controlling credit risk; particularly complex structured securities such as

13
     NCUA updated the Corporate Examiner‟s Guide in March 2008.
                                                                                         31
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



mortgage-backed securities, which may have numerous components of credit
exposure.

The Guide also discusses the effect of credit risk in the investment portfolio on NEV
and liquidity. For example, the Guide states in part,

        “…it is important for corporate credit unions to understand and
        monitor the impact to NEV of potential volatility in the market
        value of the investment portfolio. As NEV declines, the ability
        to meet members‟ potential liquidity demands diminishes...”

The Guide further warns examiners of the danger of focusing on high credit ratings
and the probability of default (i.e., the higher the rating the less the probability of
default) stating in part:

        “…Failing to recognize the impact on NEV of credit events other than an
        event of default ignores a major component of risk…”

Based on our review, we believe examiners, as well as Constitution management,
relied too heavily on credit ratings to determine credit risk in the portfolio. Through
interviews, we determined that examiners did not perform further analysis on the
potential credit and liquidity risks associated with Constitution‟s significant holdings
and concentrations of mortgage-backed securities prior to 2008 because most were
AAA rated. In addition, we believe examiners‟ failure to further asses these risks
prevented them from recognizing earlier in the process, the inadequacy of
management‟s assessment and monitoring of credit risk in the investment portfolio
due to the large concentrations of private issue mortgage-backed securities.

We determined increased supervisory oversight was warranted, in the form of:

       More timely supervisory action related to the credit risk in Constitution‟s
        significant concentration in mortgage-backed securities. By the time
        examiners issued the DOR in October 2008 (Effective August 31, 2008), the
        mortgage-backed securities market had deteriorated to the point where
        these securities were no longer being actively traded. We believe had
        NCUA required Constitution to perform more extensive evaluation on its
        securities concentrations and credit risk exposure prior to the market
        dislocation in 2007, Constitution may have had the opportunity to divest
        some of these securities or limit additional purchases of these securities.

       More authoritative guidance related to sector concentrations and identifying
        and monitoring risk related to the market value of securities through the NEV
        may have allowed NCUA to more effectively encourage Constitution‟s
        management to more proactively address the significant risks associated
        with Constitution‟s investment portfolio.

                                                                                     32
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



As stated earlier in this report, we believe NCUA‟s over-reliance on investment
ratings prevented them from performing further evaluation on the significant risks
that the large holdings of private label mortgage-backed securities posed to the
safety and soundness of Constitution and the credit union system as a whole. We
also believe substantial purchases of these investments by Constitution and other
corporate credit unions should have prompted NCUA to review examiner guidance
and training to enhance on the ability of its examiners and analysts to evaluate risks
associated with the complex assets, and the underlying assets securing the
collateral. Accordingly, we are making the following recommendations:

Recommendations

Based on the conditions and findings described in this report, we recommend
NCUA management:

    1. Provide corporate credit unions with more definitive guidance on limiting
       investment portfolio concentrations by security type (agency-backed versus
       private label backed securities), sector type (residential real estate versus
       non-residential real estate), and by supporting collateral (private label sub-
       prime, Alt-A, prime, exotic mortgage, etc.).

    2. Institute requirements for corporate credit union board membership to
       eliminate conflicts of interest. Specifically, the NCUA should determine
       whether it is appropriate for retail corporate credit union board members to
       sit on the boards of the top-tier corporate credit unions.

    3. Provide NCUA examiners training to identify higher risk assets, especially if
       those assets are higher yielding products that involve a higher level of
       sophistication and several counterparties. Additionally, outside of previously
       raised recommendations for sector limit concentrations and diversification,
       NCUA should consider off-site monitoring enhancements of Call Report data
       to identify rapidly increasing holdings of certain types of assets and ensure
       that examiners and credit union management fully understand the risks
       posed by the products. NCUA should require credit unions to perform stress
       testing or scenario analysis to evaluate potential losses in the event of
       market dislocations or adjustments to other economic conditions.

We made these same recommendations to NCUA management in our report
entitled: Material Loss Review of Members United Corporate Federal Credit Union
(OIG-11-01), issued May 4, 2011, and management has already taken or agreed to
take corrective action to resolve these recommendations, therefore, it not
necessary for management to respond to the three recommendations specified
above. However, we are making one new recommendation to NCUA Management
to correct a deficiency identified in this report related to credit risk.



                                                                                      33
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



We recommend NCUA management:

1. Determine the best use of available resources to independently assess risk
   within corporate credit unions and other significant/complex institutions.


Management Response

Management agrees with the recommendation and has formed a working group to
identify enhanced risk posed by large, complex institutions and develop appropriate
strategies to supervise those institutions.

OIG Response

We concur with management‟s planned actions.




                                                                                 34
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09



Appendix A - Management Response




                                                                     35
Material Loss Review – Constitution Corporate Federal Credit Union
OIG-11-09




                                                                     36
